Diners Club® Credit Card
Pricing Information Table

Interest Rates and Interest Charges
Annual Percentage Rate
(APR) for Purchases

13.15%

APR for Cash Advances

13.15%
This APR will vary with the market based on the Prime Rate.

Paying Interest

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by
the due date each month. We will begin charging interest on cash advances
and balance transfers on the Post date.

Minimum Interest Charge

If you are charged interest the charge will be no less than 50 cents.

This APR will vary with the market based on the Prime Rate.

Fees
Annual Fee

$0

Transaction Fees
• Cash Advance

• Either $10 or 5% of the amount of each cash advance, whichever is greater.

• Foreign Purchase
Transaction

• 3% of each purchase transaction in US dollars.

Penalty Fees
• Late Payment

• Up to $39

• Returned Payment

• Up to $39

Details About Your Interest Rates and
Interest Calculations
Purchases
Cash Advances

Daily Periodic Rate
APR as of
As of 06/01/21
06/01/21
13.15% (v)
0.03602
13.15% (v)
0.03602
(v) = Variable rate

For variable rates:
Prime Rates Plus
9.90%
9.90%

APRs Based on Prime. If any APR is based on the U.S. Prime Rate (“Prime Rate”), the APR will equal the
Prime Rate plus the additional amount shown above. If the Prime Rate increases, it will cause the APR to
increase. If the Prime Rate decreases, it will cause the APR to decrease. For each billing period we use the
Prime Rate published in The Wall Street Journal on the last day of each month. If the Wall Street Journal is
not published on that day, we will use the rate published in the immediately preceding edition. If the Prime
Rate causes an APR to change, we put the new APR into effect as of the first day of the billing period for
which we calculate the APR. We apply the new APR to any existing balances, subject to any promotional
rate that may apply. If The Wall Street Journal does not publish the Prime Rate, we will use a similar
published rate.
Effect of APR Increases. If an APR increases, interest charges increase. Your minimum payment may
increase as well.
How We Will Calculate Your Balance: We use a method called “average daily balance” (excluding current
purchases) to calculate your purchase balance and “average daily balance” (including current advances) to
calculate your cash advance balance. See your Card Agreement for more details.
Penalty Fees: A single violation of each type will not exceed $29. However, if another violation of the same
type occurs within six billing cycles, we will charge up to the maximum fee in the table above. The Late
Payment and Returned Payment fees will not exceed the related Minimum Payment Due.

Banking products and services are provided by BMO Harris Bank N.A. and are subject to credit approval. BMO Harris® and BMO Harris Bank® are trade
names used by BMO Harris Bank N.A. Member FDIC Diners Club® and Diners Club International with Split Circle Device are registered trademarks of
Diners Club International Ltd.

Rev. 06/2021

